IN THE SUPREME COURT OF THE UNITED STATES
___________
No. A-_____
OTO, L.L.C., APPLICANT
v.
KEN KHO; JULIE A. SU, CALIFORNIA LABOR COMMISSIONER
___________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE CALIFORNIA SUPREME COURT
___________
Pursuant to Rules 13.5 and 30.2 of this Court, counsel for
OTO, L.L.C., respectfully requests a 45-day extension of time, to
and including January 13, 2020, within which to file a petition
for a writ of certiorari to review the judgment of the California
Supreme Court in this case.

The California Supreme Court entered

its judgment on August 29, 2019.

App., infra, 1a-96a.

Unless

extended, the time for filing a petition for a writ of certiorari
will expire on November 27, 2019.

The jurisdiction of this Court

would be invoked under 28 U.S.C. 1257(a).
1.

This case presents the question whether the Federal Ar-

bitration Act (FAA) preempts a state-law rule that deems substantively unconscionable contracts for arbitration of wage disputes
if the contemplated arbitration procedures are not sufficiently
similar to those of the administrative proceeding that would otherwise be available under state law.

Applicant is an auto deal-

ership; respondent Ken Kho worked as a service technician for

2

applicant. *

During that time, applicant and Kho entered an arbi-

tration agreement that provided that all disputes arising from
Kho’s employment, including wage disputes, would be resolved by
arbitration.

The agreement specified that arbitration would be

conducted by a retired California Superior Court judge in accordance with certain provisions of the California Code of Civil Procedure and Evidence Code.

App., infra, 4a-5a.

California law provides an administrative procedure for resolving wage claims as an alternative to civil litigation.
Cal. Lab. Code §§ 98-98.8, 218, 1194.

See

A wage claimant may file a

claim with the California Labor Commissioner, who may decline to
take any further action, prosecute a civil action on the employee’s
behalf, or conduct a “Berman” hearing -- a streamlined administrative proceeding that limits pleadings, eliminates discovery,
and operates without formal rules of evidence.

When the Commis-

sioner conducts a Berman hearing, either party may appeal the
Commissioner’s decision to the California Superior Court, which
reviews the decision de novo.

App., infra, 7a-10a.

The California Supreme Court has repeatedly refused to enforce arbitration agreements that displace that administrative
proceeding, primarily by aggressively applying the unconscionability doctrine to invalidate those agreements.

As this Court has

explained, “California’s courts have been more likely to hold contracts to arbitrate unconscionable than any other contracts.” AT&T
Mobility LLC v. Concepcion, 563 U.S. 333, 342 (2011).
*

In Sonic-

Respondent Julie A. Su intervened in the litigation in her
official capacity as the California Labor Commissioner.

3

Calabasas A, Inc. v. Moreno, 247 P.3d 130 (2011) (Sonic I), the
California Supreme Court held that arbitration agreements that
waived Berman hearings were always substantively unconscionable.
Id. at 144-146.

But in AT&T Mobility, this Court held that the

FAA preempted a California rule classifying most collective-arbitration waivers in consumer contracts as unconscionable, on the
ground that the rule violated the equal-treatment principle; under
that principle, a court may invalidate an arbitration agreement
based on “generally applicable contract defenses,” but not on legal
rules that “apply only to arbitration” or “derive their meaning
from the fact that an agreement to arbitrate is at issue.”

563

U.S. at 339, 344.
This Court vacated the California Supreme Court’s decision in
Sonic I in light of its decision in AT&T Mobility.
Calabasas A, Inc. v. Moreno, 565 U.S. 973 (2011).

See Sonic-

On remand, the

California Supreme Court held that waivers of Berman hearings are
not substantively unconscionable where “the arbitral scheme at
issue provides employees with an accessible and affordable process
for resolving wage disputes.”

Sonic-Calabasas A, Inc. v. Moreno,

311 P.3d 184, 204 (2013)(Sonic II).
2.

After applicant terminated Kho for poor performance, Kho

filed an unpaid wage claim against applicant with the California
Labor Commissioner.

A Berman hearing was scheduled.

Applicant

then petitioned the California Superior Court to compel arbitration and stay the administrative proceedings; applicant notified
the Commissioner of its petition and asked that the Berman hearing
be taken off the calendar.

The Commissioner refused and proceeded

4

to conduct the Berman hearing without applicant’s participation.
The Commission ultimately awarded Kho more than $150,000 in unpaid
wages, liquidated damages, interest, and penalties.

App., infra,

5a-6a.
The

California

Superior

Court

vacated

the

Commissioner’s

award but denied applicant’s petition for arbitration, holding
that the arbitration agreement was unconscionable.
6a.

App., infra,

Under California law, the defense of unconscionability re-

quires a showing of both procedural and substantive unconscionability.

See Armendariz v. Foundation Health Psychcare Service,

Inc., 6 P.3d 669, 690 (Cal. 2000).

The Superior Court deemed the

agreement unconscionable in both respects.

It first concluded

that procedural unconscionability “attended the agreement’s execution” because it “created oppression or surprise due to uneven
bargaining power.”

App., infra, 6a.

It then concluded that the

agreement was substantively unconscionable insofar as it “fail[ed]
to provide a speedy, informal and affordable method of resolving
wage claims” and “ha[d] virtually none of the benefits afforded by
the Berman hearing procedure.”

Ibid.

According to the court, the

agreement effectively “restore[d] the procedural rules and procedures that create expense and delay in civil litigation.”
3.

Ibid.

The California Court of Appeal reversed. While the Court

of Appeal agreed that Kho had established procedural unconscionability, the court explained that it was not substantively unconscionable to provide the procedures specified in the arbitration
agreement -- which were akin to those in civil litigation -- because those procedures provided a suitable process for resolving

5

wage disputes.

App., infra, ___a.

In any event, the court rea-

soned that the specified arbitration procedure was not all that
different from the administrative procedure that would otherwise
be available:

while that administrative procedure begins with a

Berman hearing that lacks the formalities of civil litigation, it
“anticipates” a subsequent de novo proceeding in Superior Court
subject to the ordinary procedures of civil litigation.

Id. at

6a-7a.
4.

The California Supreme Court reversed.

App., infra, 1a-

a.

The California Supreme Court held that both procedural

41a.

and substantive unconscionability were present.

The court ex-

plained that, in the unique context of “compelled arbitration of
wage claims,” substantive unconscionability should be determined
by comparing the procedures contemplated by the arbitration agreement to those the claimant would have received without it.
infra, 28a, 34a.

App.,

That approach, the court noted, is “different”

from the approach used in evaluating unconscionability in other
contexts.

Id. at 27a.

Applying that unique rule of decision, the

court concluded that the arbitration agreement in this case was
unconscionable:

while it acknowledged that civil litigation is a

“system of statutory and common law carefully crafted to ensure
fairness to both sides,” it deemed the arbitration procedures substantively unconscionable precisely because they “incorporate[d]”
too many “intricacies of civil litigation,” unlike the more “accessible, informal, and affordable” Berman hearing.
10a, 26a-27a.

App., infra,

6

b.

Justice Chin dissented.

He reasoned that, in addition

to misapplying California law, the majority had “run[] afoul” of
the FAA’s equal-treatment principle.

App., infra, ___a.

In his

view, “under the cloak of unconscionability,” the majority had
applied an arbitration-specific rule of decision to invalidate the
agreement on the ground that the arbitration procedure was “less
advantageous” for Kho “than the Berman procedure.”

App., infra,

86a-91a. The majority’s approach, Judge Chin explained, was “nothing more than a mere preference” for the administrative procedures
for resolving wage disputes otherwise available under state law
-- the same preference this Court had held to be incompatible with
the FAA in Sonic I.

Id. at 89a (internal quotation marks and

citation omitted). Justice Chin added that the majority’s approach
was “incompatible with, and thus preempted by, the FAA” because
the

application

of

its

“unique

unconscionability

analysis”

amounted to a “preliminary litigating hurdle” that “stands as an
obstacle” to the “purposes and objectives” of the FAA.

Id. at

91a-93a (alteration omitted).
5.

Counsel for applicant respectfully requests a 45-day ex-

tension of time, to and including January 13, 2020, within which
to file a petition for a writ of certiorari.

This case presents

complex issues concerning the FAA’s preemption of a state rule of
contract law.

The undersigned counsel did not represent applicant

below and needs additional time to review the record and opinions
below. In addition, the undersigned counsel is currently preparing
a merits brief in this Court in Seila Law LLC v. Consumer Financial

7

Protection Bureau, No. 19-7 (due Dec. 9, 2019), and will be presenting oral argument in the Fifth Circuit in Firefighters’ Retirement System v. Citco Group Ltd., No. 19-30165 (Dec. 4, 2019).
Additional time is therefore needed to prepare and print the petition in this case.
Respectfully submitted.
KANNON K. SHANMUGAM
Counsel of Record
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
November 4, 2019

